                       U.S. DEPARTMENT OF ENERGY
                      OFFICE OF INSPECTOR GENERAL




                         MANAGEMENT REPORT
                 AUDIT OF THE DEPARTMENT OF ENERGY'S
                 CONSOLIDATED FINANCIAL STATEMENTS
                          FOR FISCAL YEAR 1998




Report Number: CR-FS-99-01                   Capital Regional Audit Office
Date of Issue: June 15, 1999                 Germantown, MD 20874
                                MANAGEMENT REPORT
                        AUDIT OF THE DEPARTMENT OF ENERGY'S
                        CONSOLIDATED FINANCIAL STATEMENTS
                                 FOR FISCAL YEAR 1998


                                          TABLE OF CONTENTS




                                                                                                                Page

               SUMMARY..................................................................................         1

PART I - APPROACH AND OVERVIEW..................................................                                 2

               Introduction..................................................................................    2

               Scope and Methodology................................................................             2

               Observations.................................................................................     3

PART II - AUDIT RESULTS........................................................................                  5
                          U. S. DEPARTMENT OF ENERGY
                          OFFICE OF INSPECTOR GENERAL
                            OFFICE OF AUDIT SERVICES

                            MANAGEMENT REPORT
                    AUDIT OF THE DEPARTMENT OF ENERGY'S
                    CONSOLIDATED FINANCIAL STATEMENTS
                             FOR FISCAL YEAR 1998


Audit Report Number: CR-FS-99-01

                                        SUMMARY


    As required by the Government Management Reform Act of 1994, we audited the
U.S. Department of Energy's (Department) consolidated financial statements as of and for
the years ended September 30, 1998 and 1997 to determine whether they presented fairly,
in all material respects, the Department's financial position, net cost, changes in net
position, budgetary resources, financing activities, and custodial activities in conformity
with Federal accounting standards. As part of this Departmentwide effort, we examined
internal controls, assessed compliance with applicable laws and regulations, and tested
selected account balances at Headquarters and at a number of field activities. The results
of our audit are included in Audit Report No. IG-FS-99-01 issued February 25, 1999.
Additional management-level reports addressing local issues are being issued to field
elements.

    During our audit, we identified several issues within the purview of the Chief Financial
Officer (CFO) and selected Headquarters program offices. A number of miscellaneous
problems were identified in the areas of deferred maintenance, delinquent accounts,
compliance with cost accounting standards, accounting for heritage assets, disbursements
record-keeping, environmental liabilities estimates, financial system logic, presentation and
disclosure, and computer and network access controls.

    Management generally concurred with the findings and recommendations and
acknowledged that corrective actions were needed. Part II of this report discusses our
results and management's comments.



                                              ______________________
                                              Office of Inspector General




                                              1
                                          PART I

                             APPROACH AND OVERVIEW


INTRODUCTION

    In compliance with The Government Management Reform Act of 1994, we audited
the balance sheets of the Department as of September 30, 1998 and 1997, and the related
consolidated statements of net cost, changes in net position, budgetary resources,
financing, and custodial activity for the fiscal years then ended. We examined internal
controls, assessed compliance with laws and regulations, and tested selected account
balances at various Departmental facilities.

    The objective of the Departmentwide audit was to determine whether the
Department's consolidated financial statements presented fairly, in all material respects, the
financial position of the Department as of September 30, 1998 and 1997, and its
consolidated net cost, changes in net position, budgetary resources, financing activities,
and custodial activities for the fiscal years then ended in conformity with Federal
accounting standards. Departmentwide issues developed during our audit were addressed
in Audit Report No. IG-FS-99-01. Additional management-level reports are being issued
to various field activities.

    The purpose of this report is to inform the CFO of matters that came to the attention
of the Office of Inspector General during the audit that were within the purview of the
CFO and selected Headquarters program offices. The findings and recommendations
included in this report did not impact the overall opinion on the Department's consolidated
financial statements and have not been included in other audit reports. They are, however,
matters that need to be addressed and should strengthen the Department's system of
internal controls or result in operating efficiencies.

SCOPE AND METHODOLOGY

    Fieldwork was conducted from May 1998 through January 1999 at various
Headquarters components of the CFO. Those components included the Capital
Accounting Center and the Office of Financial Control and Reporting. Audit work at the
Department's field elements was also substantially completed during the same period and
included both Departmental and contractor accounting entities. As part of this effort, we
obtained an understanding of the system of internal controls, performed tests of control
procedures, assessed compliance with applicable laws and regulations, and tested selected
account balances as necessary to achieve the Departmentwide audit objective.




                                              2
       Audit work was performed in accordance with generally accepted
Government auditing standards. Since we relied on computer-generated data, we
evaluated the general and application control environment of certain systems and
evaluated the reliability of the data on a test basis.

        In conjunction with our review of general and application controls, we
performed a review of the automated system security control environment for
network system operations from January 19 to January 27, 1999. The work
concentrated on the Headquarters network and selected devices and included
information systems processing financial data required for the Department's
financial statements. We used network security software to scan for network and
active modem vulnerabilities. We considered information technology related
policies and procedures and performed other procedures as necessary to satisfy our
audit objective.

     Because the audit was limited, it would not necessarily have disclosed all internal
control weaknesses that exist. Furthermore, because of inherent limitations in any system
of internal controls, errors or irregularities may nevertheless occur and not be detected.
Issues addressed in this report represent our observations of activities through the end of
fieldwork. Projection of any evaluation of the system of internal controls to future periods
is subject to the risk that procedures may become inadequate because of changes in
conditions or that the effectiveness of the design and operation of policies and procedures
may deteriorate.

   The Office of Chief Financial Officer waived an exit conference.

OBSERVATIONS

    During our audit, we identified issues within the purview of the CFO and selected
Headquarters program offices. These issues related to deferred maintenance, delinquent
accounts, compliance with cost accounting standards, accounting for heritage assets,
disbursements record-keeping, environmental liabilities estimates, financial system logic,
presentation and disclosure, and computer and network access controls. A brief
description of each follows:

   • Headquarters guidance regarding deferred maintenance was not implemented
     consistently across the complex resulting in incomplete and inaccurate amounts
     being reported.

   • Some sites did not refer delinquent receivables from other Federal agencies to the
     Attorney General's office.

   • The Department did not fully comply with cost accounting standards because it did
     not document corporate cost accounting activities, processes, and procedures.


                                             3
   • Some Heritage Asset balances were found on the records.

   • Supporting documentation for the accrual of accounts payable was unclear and
     poorly documented.

   • Departmental estimates did not completely and accurately capture the
     Department's active facility environmental liability as of year-end.

   • The Department did not fully document the logic behind its crosswalk of balance
     sheet accounts to standard general ledger accounts.

   • The Department did not adequately disclose the reasons behind some changes to
     the Fiscal Year (FY) 1997 comparative data presented in the FY 1998
     consolidated financial statements.

   • The Department's computer access verification process was not sufficient to
     prevent unauthorized users from gaining access to the Department's financial
     accounting systems and applications.

   • Headquarters did not adequately protect its systems from unauthorized access
     from remote locations or through its network.

   Management generally concurred with the findings and recommendations and
acknowledged that corrective actions were needed. Part II of this report provides
additional details concerning the audit results and management's comments.




                                            4
                                        PART II

                                   AUDIT RESULTS


Finding 1: Deferred Maintenance Estimates

    Federal accounting standards require the Department to report the condition and the
estimated cost to remedy deferred maintenance of property, plant and equipment. To
comply with accounting standards, the Department adopted the Condition Assessment
Survey Method to measure deferred maintenance on personal property having an
acquisition value greater than $100,000 and real property including other structures and
facilities.

    The Department's controls to ensure the proper collection of deferred maintenance
information were not entirely effective. Deferred maintenance problems were identified at
Albuquerque, Idaho, and Richland.

   • The Inhalation Toxicology Research Institute did not provide Albuquerque
     operations office with deferred maintenance data for 77 buildings valued at $23.9
     million.

   • Idaho National Engineering and Environmental Laboratory (INEEL) did not
     include building use when it developed its building deferred maintenance
     extrapolation model. This model was used to estimate deferred maintenance for
     209 of INEEL's 547 buildings.

   • Richland did not use condition assessment surveys (CAS) to estimate deferred
     maintenance for real property except at Pacific Northwest National Laboratory.

    These problems occurred because the Department did not ensure that Headquarters'
guidance was properly applied. As a result, the Department could not provide adequate
assurance that its deferred maintenance estimate is consistent and accurate.

Recommendation

We recommended that the Office of Field Management (FM) ensure that deferred
maintenance estimates are being developed consistently and in accordance with the
Headquarters guidance.




                                            5
Management Comments

    Management concurred with the recommendation. FM agreed to clarify guidance
relating to methods for calculating deferred maintenance estimates and to instruct field
offices to ensure that methods used are consistent with the guidance.

Auditor Comments

   Management's proposed actions are responsive to the recommendation.


Finding 2: Debt Collection Strategy

    The Department's Accounting Handbook describes the Department's strategy for
collecting receivables. It requires field CFOs to aggressively follow up on all delinquent
receivables. Both Albuquerque and Oakland had outstanding delinquent receivables from
other Federal agencies. This occurred in part because there was no definitive guidance on
how to collect other Federal agency receivables through the Attorney General. As a
result, the Department may have been using its own funds to cover the costs of other
Federal agencies.

Recommendation

    We recommended that the CFO issue specific guidance addressing collection of
delinquent interagency claims and work with the field CFOs in the collection of delinquent
receivables.

Management Comments

   The CFO concurred with the findings and agreed to implement the recommendations.

Auditor Comments

   Management's proposed actions are responsive to our recommendations.


Finding 3: Cost Accounting Standards

    Federal accounting standards require entities to establish procedures to accumulate
and report costs continuously, routinely, and consistently for managerial purposes. The
Department did not fully comply with cost accounting standards that are critical to the
collection of reliable and timely full cost information. For example, the CFO had not fully
documented its cost accounting activities, processes, and procedures. This condition
existed because management considered current financial system information sufficient to
facilitate routine analysis and decision-making. As a result, economies and efficiencies



                                             6
were lost due to inconsistent application of procedures and practices for accumulating,
measuring, analyzing, interpreting, and reporting cost information.

Recommendation

    We recommended that the CFO update the Department's Accounting Handbook to
include the managerial cost accounting system information. This update to the handbook
should explain the Department's procedures and practices from a corporate perspective for
the implementation of all requirements explained in the managerial cost accounting
standards.

   It is suggested that the document follow the implementation guidance contained in the
CFO Counsel/Joint Financial Management Improvement Program's (JFMIP) Cost
Accounting Implementation Guide and the JFMIP Managerial Cost Accounting System
Requirements Guide.

Management Comments

    The CFO generally concurred with the recommendation. However, they disagreed
with the potential effects described in the finding.

Auditor Comments

   Management's proposed actions are responsive to our recommendation.


Finding 4: Heritage Assets

    According to Federal accounting standards, no asset amount should be shown on the
balance sheet for Heritage Assets. While Departmental analysis disclosed that most of its
29 identified Heritage Assets were either not on the Department's balance sheet or had no
net value, at the time of our review, the Departmental analysis was not yet finalized.
Therefore, complete determinations had not been made on all of the properties, and at
least two properties had a recorded balance on the books. As a result, assets on the
balance sheet are overstated to the extent that Heritage Assets with positive book values
remain on the records.

Recommendations

   We recommended that:

  1. The Department complete the analysis it started and determine whether any other
     Heritage Assets continue to have recorded balances on the financial records.




                                            7
    2. Remove all asset balances for Heritage Assets shown on the Department's balance
        sheets, charging amounts removed to Net Position.

Management Comments

    Management generally concurred with the finding. The Department completed its
analysis of Heritage Assets and confirmed that there were only two properties with a
recorded balance on the books at September 30, 1998. Due to the immateriality of the
amounts involved, they instructed the applicable offices to remove the asset balances for
Heritage Assets in FY 1999.

Auditor Comments

   Management's proposed actions are responsive to our recommendations.


Finding 5: Disbursements

    The DOE Accounting Handbook requires that liabilities recorded in the financial
statements reflect both invoices received, and accruals for any costs incurred, or assets
received for which progress billings, grant reimbursements requests, and other billings
have not been received. Further it requires the accounts payable control account(s) to be
supported by unpaid invoice files, subsidiary ledgers, or other forms of subsidiary records.
The Capital Accounting Center's (CAC) support for the accrual of accounts payable was
unclear and not well documented. This occurred because CAC implemented new,
unwritten procedures for manually accruing invoices at yearend. As a result, there was
increased risk that transactions would not be properly recorded.

Recommendation

   We recommended that CAC develop formal documented procedures relating to the
proper treatment of accrued liabilities.

Management Comments

    CAC management concurred with the finding and committed to implement the
recommendation.

Auditor Comments

   Management's proposed actions are responsive to our recommendation.




                                             8
Finding 6: Environmental Liabilities for Active Facilities

    As a component of its overall system of internal controls, the Department is
responsible for establishing controls to provide reasonable assurance that environmental
liabilities estimates for Active Facilities are complete, accurate, and reliable. The
Department's system for estimating environmental liabilities for active facilities did not
completely and accurately capture the Department's liability as of September 30, 1998.
For example, we found duplicative facilities in the Oak Ridge Operations Office active
facilities estimate, and at Savannah River, square footage estimates used as the basis for
the estimate were not properly updated. This occurred because the sites involved did not
have an adequate system of internal controls in place to ensure the Active Facilities
environmental liabilities estimates were complete, accurate, and reliable. As a result, there
is an increased risk that misstatements in the Department's environmental liabilities
estimate for Active Facilities exist and have not been detected.

Recommendation

   The CFO should clarify guidance on updating the Active Facilities estimate input data.
This guidance should include an additional explanation on what square footage amounts
should be used and that those amounts should be documented.

Management Comments

    The CFO concurred with our recommendations. Clarifying guidance will be issued
during Fiscal Year 1999.

Auditor Comments

   Management's proposed actions are responsive to our recommendations.


Finding 7: Financial System Logic

    Office of Management and Budget Circular No. A-127 – Revised requires agencies to
clearly document financial management systems and processing instructions in accordance
with the requirements contained in the Federal Financial Management System
Requirements documents. The Department's financial management system did not fully
implement Federal Financial Management System Requirements. Specifically, the
Department's documentation supporting conversion of Departmental Balance Sheet Code
(BSC) accounts into Federal Standard General Ledger (SGL) accounts and the rationale
behind the inclusion/exclusion of specific SGL accounts in the financial statements was not
adequate. This occurred because the Department did not consider this matter to be of high
priority. As a result, the Department increases the risk of reporting a misstatement in its
financial statements resulting from incorrect conversion and/or crosswalk of Departmental



                                              9
account balances, and sustaining interruptions in its ability to issue reliable internal and
external financial information in the event of key personnel changes.

Recommendation

    We recommended that the CFO:

    1. Update and maintain the Department's Chart of Accounts to:

        • Reflect the current definitions, restrictions, related codes, edits, SGL account,
          Departmental sub-accounts, SGL account titles, associated Management
          Analysis Reporting System (MARS) elements used in the operation of the
          financial system, and

        • Include detailed explanations of the rationale for converting BSC accounts to
          SGL accounts and the subsequent crosswalk to the financial statements for each
          account; or

    2. Implement use of SGL accounts at the transaction level.

Management Comments

   Management concurred with the recommendation and agreed to update the
Department's Chart of Accounts and to consider use of the SGL at the transaction level.

Auditor Comments

    Management's proposed actions are responsive to our recommendation.


Finding 8: Presentation and Disclosure

    Financial statements should fully disclose an agency's financial position and results of
operations and provide information with which readers can assess management
performance and stewardship. Information pertinent to specific financial statement items
should be explained in the footnotes. However, the Department did not adequately
disclose the reasons behind some of the changes to FY 1997 comparative data from the
prior year. This occurred because the Department did not adequately account for all
differences between FY 1997 and 1998. Specifically, the observed differences were
researched by the Department on a case-by-case basis in response to auditor inquiries. As
a result, readers of the FY 1998 financial statements may not be aware that some
comparative data does not tie to that reported in the prior year.




                                              10
Recommendations

   The Office of Financial Control and Reporting should:

   1. Expand its footnote disclosure to ensure that readers are aware of all
      reclassifications affecting each line item balance; and

   2. Perform a reconciliation between current and prior year reporting of data for the
      same period.

Management Comments

    The CFO concurred with the recommendations. Footnotes were expanded, where
appropriate, to alert readers to reclassifications of line item balances. In addition, a
reconciliation process will be implemented during the FY 1999 financial statement process
to ensure all restated balances are promptly identified and properly disclosed in the
statements.

Auditor Comments

   Management's proposed actions are responsive to our recommendation.


Finding 9: Automated Data Processing Access Controls

    Good management practices dictate that access controls should be in place over
financial and financial-related systems and applications to limit access to computer
resources (data, facilities, and equipment) thereby protecting these resources against
unauthorized modification, loss, and disclosure. We found that access controls at
Headquarters for removing terminated employees and inactive users from certain
information systems were insufficient. In addition, application controls at Headquarters
for limiting access to the financial accounting applications (i.e. DISCAS, MARS, FIS and
FDS) were ineffective. These problems existed because Headquarters did not have
adequate policies and procedures in place to identify and remove terminated employees
from the financial accounting systems, monitor and remove inactive user accounts, and
evaluate current user needs for system applications. As a result, Headquarters has an
increased risk of unauthorized users gaining access to the Department's financial
accounting systems and applications.

Recommendation

    We recommended that Headquarters CFO work with the Office of the Chief
Information Officer (CIO) to implement policies and procedures for (1) identifying and
removing terminated employees, (2) removing inactive user accounts from the system, and



                                            11
(3) determining the needs of the application users and ensuring that access to financial-
related applications corresponds with job responsibilities.

Management Comments

    Management concurred with the findings and agreed to identify and remove
terminated employees and inactive user accounts. In addition, they agreed to review
current procedures for adding and removing specific application user capabilities and
strengthen guidance where necessary.

Auditor Comments

   Management's proposed actions are responsive to our recommendation.


Finding 10: Controls Over Network Access

    Headquarters has a number of local area networks (LANs) that are
geographically dispersed throughout the Washington metropolitan area. These
LANs are interconnected by a wide area network link. This link provides a
backbone for Headquarters to communicate regardless of physical location. Most
Headquarters program elements have separate network systems that use the
Headquarters backbone for interconnectivity. The CFO, for example, uses this
backbone as a medium to communicate financial data and other information
between the Forrestal building, located in Washington D.C., and the Department's
offices in Germantown, Maryland.

    The CIO is responsible for the maintenance and operation of the network
backbone, while the individual program elements are responsible for the operation,
security, and maintenance of their individual network components. The CIO is
also responsible for establishing, implementing, and maintaining policies,
procedures, manuals, and guidelines relative to DOE's telecommunication security
and unclassified computer security programs for all Departmental elements,
including Headquarters. Departmental program offices are responsible for
implementing these policies, procedures, manuals, and guidelines relative to
telecommunications and unclassified computer security.

    Federal and Departmental directives require that procedures be developed and
implemented to prevent misuse and abuse of unclassified computer resources. The
Headquarters network backbone and various network components were not
adequately protected and were vulnerable to unauthorized access or malicious
attack. This occurred because the CIO and Headquarters program officials did not
ensure implementation of controls sufficient to prevent or detect unauthorized
access to the Headquarters network, including its data, applications programs, and
systems software. The observed control weaknesses could result in breaches in the



                                             12
security of data and programs. For example, the Headquarters network is
vulnerable to unauthorized use. Moreover, such weaknesses could allow an
intruder to introduce viruses and other malicious programs to Headquarters
systems.

Recommendations

    The CIO, in conjunction with Headquarters program offices, should take
action to strengthen computer network security.

Note: Details regarding vulnerabilities discovered and recommendations for corrective
action were communicated to the CIO and various program offices, but are not included in
this finding due to security considerations.

Management Comments

    The CIO for Operations provided written comments on a draft of this finding.
We have incorporated those comments into our finding as appropriate.
Management generally concurred with our finding and stated that specific actions
had been or were being taken to correct high-risk weaknesses. The Associate CIO
for Operations also stated that certain vulnerabilities or risks for which the CIO
was responsible were known to exist and had been assumed by management. He
suggested that the OIG develop a case, from a risk management perspective,
addressing why assumption of such risks was not appropriate.

    The Associate CIO for Operations also stated that his office did not have the
authority to control the entire Headquarters network in the current decentralized
environment and suggested that our recommendation be directed to program
elements with vulnerabilities. CIO officials have however indicated that
discussions regarding a proposal to strengthen network security by establishing a
Headquarters Configuration Control Board are in process. Among other things,
that Board would be responsible for ensuring that network components meet
security standards.

Auditor Comments

    The comments provided by the CIO are generally responsive to our
recommendation. While the assumption of certain risks may be appropriate for
operational purposes, the burden is upon management to analyze the risks and
associated benefits of such an assumption. Management was unable to furnish us
with documentation to support the assumption of risks associated with network
vulnerabilities.

    We recognize that the Office of the CIO is not responsible for security on the
entire network and believe efforts to form a Headquarters Configuration Control



                                            13
Board are a step in the right direction. In the absence of a strong centralized
authority over the network, the establishment of a configuration control board
offers the opportunity to implement needed security changes. Specifically, the
Board, when established, should have responsibility for planning and implementing
controls that are essential in a volatile information security management
environment. As suggested by our recommendation, we believe the CIO should
work with Headquarters program offices to improve network security.

    We plan to conduct follow-up reviews of management's efforts to correct the
conditions described and assess their effectiveness in conjunction with our Audit of
the Department's Fiscal Year 1999 Consolidated Financial Statements.




                                            14
                                                                      IG Report No. CR-FS-99-01

                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore ask that you consider sharing your thoughts with us. On the back of this form, you
may suggest improvements to enhance the effectiveness of future reports. Please include answers
to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name ___________________________             Date_____________________________

Telephone _______________________            Organization_______________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                 Office of Inspector General (IG-1)
                                 Department of Energy
                                 Washington, DC 20585

                                 ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
        electronically through the Internet at the following alternative addresses:


          U.S. Department of Energy Management and Administration Home Page
                                http://www.hr.doe.gov/ig
                                          or
                                 http://www.ma.doe.gov


             Your comments would be appreciated and can be provided on the
                    Customer Response Form attached to the report.
